No.
In The

Supreme Court of tfje Untteb States
Joshua Horn,
Petitioner,
v.
Wal-Mart Stores, Inc., store 1903.
Respondent.

On Petition for Review to
the California Supreme Court

APPENDIX TO PETITION FOR WRIT OF CERTIORARI

Joshua Horn
P.O. BOX 1388
Penn Valley, CA 95946
(530) 432-6657
In Forma Pauperis/Pro Se
Counselfor Certiorari

Court of Appeal, Third Appellate District
Andrea K. Wallin-Rohmann, Clerk
Electronically FILED on 10/1/2020 by K. Peterson, Deputy Clerk

NOT TO BE PUBLISHED
pubfic^io^oi^ordered^bilslied^except^as spedflecTby mle ^.1?1^S(b)°TWs opinio^^aSHiot been'certified^o1?publication
or ordered published for purposes of rule 8.1115.____________________________________________________________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sutter)

C089684

JOSHUA HORN,

(Super. Ct. No.
CVCS160001624)

Plaintiff and Appellant,
v.
WAL-MART STORES, INC.,
Defendant and Respondent.

Plaintiff Joshua Horn appeals following defendant Wal-Mart Stores, Inc’s
successful motion for summary judgment. On appeal, Horn raises an array of contentions
under headings including: (1) “Trial Court’s Retaliation/Abuse of Discretion”; (2) “Trial
Court’s Racial and Disability Discrimination”; (3) “Trial Court’s Refusal to Uphold the
California Constitution and Willful Neglect of Duty”; (4) “Trial Court’s Willful
Misinterpretation of [the California Rules of Court]”; and (5) “Trial Court’s
Employees[’] Breach of Oath and/or Affirmation.” (Capitalization omitted.)
We affirm.

i

m-\

FACTUAL AND PROCEDURAL BACKGROUND
The Pleadings
In 2016, Horn, acting in pro per, sued Wal-Mart for fraud and wrongful
i

termination. Two years later, he filed an amended complaint adding counts for
Americans with Disabilities Act discrimination, racial discrimination, retaliation,
intentional negligence, and intentional infliction of emotional distress.
Six months after that, the trial court granted Wal-Mart’s motion for summary
judgment. The court’s written order noted Horn had filed no evidentiary objections to
Wal-Mart’s evidence submitted in support of its motion. And Horn had filed no response ^"
i

to Wal-Mart’s statement of undisputed material facts.
The court concluded summary adjudication was appropriate for all counts, for
reasons including that Wal-Mart undisputedly made no false misrepresentation of fact to

1
I

Horn, and Horn suffered no resulting damages; Wal-Mart’s actions were taken for a
legitimate business reason, and Horn could not show Wal-Mart’s actions were pretextual;
certain claims were time barred; and the Workers Compensation Exclusivity Act barred

!
i

other claims.
Between the time Horn filed suit and the time Wal-Mart was granted summary
judgment, Horn unsuccessfully moved to transfer venue,1 Walmart successfully moved to '
compel discovery and for sanctions, and Horn brought multiple motions to continue.

l

In early 2019, Horn moved to transfer venue, averring he “suffered from racial
discrimination, and from habitual judicial misconduct being condoned by this Court’s
Staff... as well as multiple judges of this Court...He wrote: “This Court clearly
does not have adequate judicial resources to try Mr. Horn’s case.” Wal-Mart opposed the
motion as untimely, lacking in evidence that the trial court should be disqualified, lacking
a timely preemptory challenge, and lacking evidence that a venue change would
convenience witnesses and promote the ends ofjustice. Horn did not file a response to
Wal-Mart’s opposition, and a subsequent minute order reflected the motion had been
“submitted without argument,” and denied.
2

lAPP-2

Horn appealed from entry of judgment following the grant of summary judgment.2
DISCUSSION
On appeal, Horn is proceeding in pro per, as he did before the trial court. Pro per
litigants are required to follow the rules of appellate procedure; they are treated like any
other party and receive no greater consideration. (Nwosu v. Uba (2004) 122 Cal.App.4th
1229, 1247.) Horn’s briefing suffers from a number of flaws.
I. Sanctions
Under the headings, “Trial Court’s Retaliation/Abuse of Discretion,” and “Trial
Court’s Racial and Disability Discrimination,” Horn challenges the award of sanctions as
part of Wal-Mart’s motion to compel.3 We find no error. (Capitalization omitted.)

2 While Wal-Mart acknowledges judgment is final and thus appealable, it argues the
underlying orders Horn challenges on appeal (the change of venue, discovery sanctions,
and the motions to continue) are neither final nor appealable. Wal-Mart thus asks that
portions of Horn’s briefs pertaining to those orders be struck. Not so. Horn may
challenge these orders as part of his appeal from the judgment. (Code Civ. Proc., § 906
[“the reviewing court may review the verdict or decision and any intermediate ruling,
proceeding, order or decision which involves the merits or necessarily affects the
judgment or order appealed from or which substantially affects the rights of a party”;
Wassmann v. South Orange County Community College District (2018) 24 Cal.App.5th
825, 852 [notice of appeal encompasses all nonappealable orders made before entry of
judgment]; Ash v. Hertz Corp. (1997) 53 Cal.App.4th 1107, 1112 [when transfer motion
denied, aggrieved party may obtain review from final judgment].)
3 Under a separate heading, “Discovery Disputes Between Parties,” Horn writes that
during status conference proceedings in September and November 2018, the trial court
stated that “some judges allowed parties to contact them whenever there was a dispute
and assist them in resolving them, and that he was not one of those said judges.” Horn
adds that the “trial court offered no other means of resolution to Mr. Horn’s discovery
disputes.” (Capitalization omitted.) We decline to address this contention. For one, the
statement is not reflected in the record. {Foust v. San Jose Construction Co., Inc. (2011)
198 Cal.App.4th 181, 186 [“[AJppellate courts have refused to reach the merits of an
appellant’s claims because no reporter’s transcript of a pertinent proceeding or a suitable
substitute was provided”].) For another, Horn has failed to establish that this was error.
3

ifWP-3

A. Additional Background
The day after Horn moved to transfer venue, Wal-Mart moved to compel
discovery responses and sought monetary sanctions for misuse of the discovery process.
Through a declaration, Wal-Mart represented that it had incurred $2,750 in attorneys’
fees in preparing the motion, $60 in filing fees, and anticipated incurring $3,910 total in
bringing the motion. Wal-Mart also cited Code of Civil Procedure sections 2030.290 and
2031.3004, which require the imposition of monetary sanctions when motions to compel
responses to interrogatories or production requests are unsuccessfully opposed.
Horn did not file an opposition. A subsequent minute order reflects the motion
was submitted with argument and taken under submission.
The trial court granted the motion, ordering Horn to respond to Wal-Mart’s
interrogatories, production requests, and request for admissions. It found Horn had
“abused and misused the discovery process by asserting objections without substantial
legal or factual justification and by failing to respond to defendant’s relevant discovery
requests.” It ordered Horn to pay Wal-Mart $1,750 in attorney fees and $60 in costs.
B. Analysis
On appeal, Horn challenges the trial court’s ruling on multiple grounds. He writes
that Wal-Mart’s counsel “failed to provide adequate legal fee quantification via any

{People v. Oates (2004) 32 Cal.4th 1048, 1068, fn. 10 [declining to address claim without
argument or citation to relevant authority].)
Also under this heading “Plaintiffs motion for transfer,” plaintiff appears to challenge
the denial of his motion to transfer venue. He writes that his “motion for transfer was
ignored by the trial court and was never fully addressed or ruled on.” (Capitalization
omitted.) We decline to address this contention, again for lack of argument or citation to
relevant authority. We note, however, that Horn failed to respond to Wal-Mart’s
opposition to the motion, which cited numerous deficiencies, and the motion was
submitted without argument at the hearing.
4 Undesignated statutory references are to the Code of Civil Procedure.
4

ftPP-H

method such as the Lodestar method...He avers the ruling was in retaliation for
filing a complaint with the Commission on Judicial Performance. He argues the trial
court “failed to substantiate why and how it came to its decision,” and failed to provide
“any case law, citation, statutory authority or publication of any kind expressing judicial
authority.” He also maintains the trial court ignored this court’s decisions regarding lowincome litigants, which purportedly “establish a precedent that prohibits courts from
imposing improper and/or unduly burdensome sanctions, penalties and/or legal fees/costs
against self-represented litigants of low-income with an inability to pay.”
Horn cites no authority supporting his claim that the order of sanctions was error.
Indeed, a trial court is required to award sanctions following a successful motion to
compel discovery responses, unless it finds the party subject to sanctions acted with
substantial justification or other circumstances make the imposition of sanction unjust.
(§§ 2030.290; 2031.300; Sinaiko Healthcare Consulting, Inc. v. Pacific Healthcare
Consultants (2007) 148 Cal.App.4th 390, 404 [“If a party fails to serve a timely response,
and the propounding party moves for and obtains a court order compelling a response, the
trial court must impose a monetary sanction against the delinquent party unless that party
acted with ‘substantial justification’ or the sanction would otherwise be unjust”].)
And Horn offers no explanation — neither here nor before the trial court — as to
how he acted with substantial justification or how sanctions were unjust, beyond his
frivolous suggestion the trial court acted in retaliation or his vague references to this
court’s decision regarding low-income litigants and the lodestar method.5 None of these
undermine the ruling.

5 The lodestar method — whereby the trial court determines the reasonable hours spent
multiplied by the reasonable hourly rate, “based on a careful compilation of the time
spent and reasonable hourly compensation of each attorney involved in the presentation
of the case” — is the primary method for establishing attorney’s fees in statutory fee5

APP-5

This contention therefore fails.
II. Motions to Continue
Under the headings, “Trial court’s refusal to uphold the California Constitution
and willful neglect of duty,” and “Trial Court’s [Willful] Misinterpretation of [the

j

I

California Rules of Court],” Horn appears to challenge the trial court’s denial of his
motions to continue. We find no error. (Capitalization omitted.)
A. Additional Background

I

Horn filed his original complaint in 2016. Two years later, Wal-Mart moved for

j
• i

summary judgment. In response, Horn moved to “dismiss” Wal-Mart’s motion for

I■

summary judgment, arguing the motion was premature and should be dismissed to allow

i
i'

Horn to conduct discovery.

j:

In early November 2018, the trial court granted Horn’s request to conduct
discovery and reset the summary judgment hearing, then scheduled for January 28, 2019,
to April 15th, “to allow plaintiff to complete the necessary discovery and to file
appropriate opposition to pending Motion.”
In March 2019, Horn moved for a continuance. He wrote that he had a worker’s
compensation trial hearing (also involving Wal-Mart) to prepare for and attend, which
had been moved from February to April. He added: “It will be several months before I

|j

will be able to adequately prepare my response to the Defendant’s motion for summary

i

judgment due to my conflicting engagement in a separate trial hearing ....”

•I

!

Wal-Mart opposed the motion, arguing it was untimely noticed, and Horn had
failed to provide a declaration that essential facts may exist and why additional time is
needed to obtain them as required under section 437c subdivision (h). It also argued that
good cause had not been shown in that the case had been pending for more than two

shifting cases. (Glaviano v. Sacramento City Unified School Dist. (2018) 22 Cal.App.5th
744, 750-751.)
6

j

years, Horn had had 175 days to oppose the motion for summary judgment, and a
previous continuance had been provided.
The motion was submitted without argument and denied as untimely noticed.
Three days later, Horn filed an ex parte motion for a continuance. He again wrote
in his declaration: “It will be several months before I will be able to adequately prepare
my response to the Defendant’s motion for summary judgment due to my conflicting
engagement in a separate trial hearing and the trial date’s continuation from the
previously set trial date was unanticipated by myself”
Wal-Mart opposed the motion, arguing that under Rule of Court Rule 3.1204,6
Horn had failed to state the date, time and place of the presentation of his application and
made no attempt to determine if Wal-Mart would appear to oppose the application. It
further argued it was Horn’s lack of diligence that prevented the case from moving
forward.
Denying the ex parte motion, the trial court cited the failure to comply with ex
parte notice requirements.
Later at the summary judgment hearing, Horn again requested a continuance over
Wal-Mart’s objection. In its written order, the trial court explained that Horn’s “oral
request for another continuance was denied. Plaintiff had already been granted a two and
one-half month continuance of the original hearing date of this motion to complete
discovery to oppose this motion, and there was. no good cause shown by plaintiff to grant
a second continuance.”
B. Analysis
On appeal, Horn contends the trial court abused its discretion in denying his
motion to continue. He argues the refusal to reschedule the hearing “provided] the

6 Undesignated references are to the Rules of Court.
7

1

Defendant’s legal counsel an advantage while presiding with a clear bias and favoritism ’ ■
toward the Defendant’s legal counsel.” He takes issue with the court’s reliance on the
..fact that a continuance had previously been granted, arguing he had not asked for an
extension, rather the extended deadline had been given at the court’s “own discretion,”
and Horn’s motion to dismiss was never ruled on.
He goes on to argue: “The trial court’s refusal to interpret the [Code of Civil
Procedure and Rules of Court] expeditiously, inexpensively, without encumbrance of
character, without impropriety and/or discrimination, as the Plaintiff was clearly involved
in a separate trial matter less than seventy-two (72) hours apart from the Defendant’s
motion for summary judgment hearing; shows that the Court has a sub-standard business
practice for the Plaintiff that is different from its standard business practice for the
Defendant.” We find no error.
44 4

In seeking a continuance of a summary judgment motion, a plaintiff has

essentially two options. The first option is to comply with section 437c, subdivision (h),
which states, “If it appears from the affidavits submitted in opposition to a motion for
summary judgment or summary adjudication, or both, that facts essential to justify
opposition may exist but cannot, for reasons stated, be presented, the court shall deny the

r

motion, order a continuance to permit affidavits to be obtained or discovery to be had, or
make any other order as may be just. The application to continue the motion to obtain
necessary discovery may also be made by ex parte motion at any time on or before the
date the opposition response to the motion is due.

55 5 55

(§ 437c, subd. (h); Levingston v.

Kaiser Foundation Health Plan, Inc. (2018) 26 Cal.App.5th 309, 315 (Levingston).)
44 4

Where a plaintiff cannot make the showing required under section 437c,

subdivision (h), a plaintiff may seek a continuance under the ordinary discretionary
standard applied to requests for a continuance.’ ” (.Levingston, supra, 26 Cal.App.5th at
p. 315.) “‘This requires a showing of good cause.’” (Ibid.) On appeal, we will uphold
the refusal to grant a continuance unless the trial court has abused its discretion. (Ibid)

I

I

8

Here, Horn has made no showing under section 437c, and we find no abuse of
discretion in denying an eleventh-hour discretionary continuance. After two years, Horn
was afforded a significant extension. And though he maintains it was the trial court’s
own discretion that gave rise to that continuance, the fact remains, that continuance was
ordered after Horn represented that more time was needed to conduct discovery. Nothing
else Horn has argued in support of his contention convinces us that the trial court
exceeded its discretion.
The contention therefore fails.
III. Summary Judgment
Finally, under the heading “Trial Court’s Employeesf’] Breach of Oath and/or
Affirmation,”7 there appears to be a challenge to the order of summary judgment. Horn
writes that he “seeks reversal on the trial court’s ruling on the Defendant’s motion for
summary judgment, recommendation to the Commission on Judicial Performance for
suspension and removal of the [trial court judge].”8 (Capitalization omitted.) He adds that,
“the evidence shows exactly how the trial court’s ruling is founded on legal error and
judicial misconduct,” and goes on to say: “The trial court, by violating the Appellant’s
civil, constitutional and ADA rights has neglected its duty to public society and to the

7 Under this heading, Horn principally discusses how, while attempting to file his notice
designating the record on appeal, he was “met by stonewall discrimination.” He refers to
numerous court clerks and asserts there was “a collective effort put forth on behalf of the
trial court to collectively disallow the Plaintiff to achieve fair administration of
justice . ...” We do not reach this contention as it is outside the record on appeal. We
are governed by the record, and we must disregard statements of facts having no support
in the record. (Mitchell v. City ofIndio (1987) 196 Cal.App.3d 881, 890.)
8

Contentions regarding the “recommendation to the Commission on Judicial
Performance for suspension and removal of the trial court’s judge .. ..” are not properly
before us.
9

flPM

state of California in addition to failing and/or refusing to uphold and defend the U.S.
Constitution.”

!■

l:

To the extent Horn is challenging the grant of summary judgment, we simply note '■
that

U i ii

[w]e review a grant of summary judgment de novo; we must decide

independently whether the facts not subject to triable dispute warrant judgment for the
moving party as a matter of law. [Citation.]” [Citation.] Put another way, we exercise
our independent judgment, and decide whether undisputed facts have been established
that negate plaintiffs claims.

(Lowery v. Kindred Healthcare Operating, Inc. (2020) 49

Cal.App.5th 119, 123.)
Here, however, Horn makes no reference to the undisputed facts or their effect on
his claims. Given that Horn has, at best, raised a perfunctory challenge to the ruling, we
conclude this claim too fails. (See Jones v. Superior Court (1994) 26 Cal.App.4th 92, 99
[“Issues do not have a life of their own: if they are not raised or supported by argument
or citation to authority, we consider the issues waived”].)9

9 In his reply brief, Horn appears to raise an additional contention that Wal-Mart filed
“fabricated evidence” showing Horn was allowed to return to work after recovering from
his work-related injury. No citation to the record is provided. Having no obligation to
consider contentions raised for the first time in a reply brief, and seeing no good cause to
do so here, we decline to reach this contention. (People v. Baniqued (2000) 85
Cal.App.4th 13, 29 [“a point raised for the first time [in the reply brief] is deemed waived
and will not be considered, unless good reason is shown for failure to present it before”].)
10

flPP-10

DISPOSITION
The judgment is affirmed. Horn shall pay Wal-Mart’s costs on appeal. (Cal. Rules
of Court, rule 8.278.)

MURRAY, J.

We concur:

£
RAYE, P. J.

BLEASE, J.

11

ftPP-U

E-NOTICE

STATE OF CALIFORNIA
California Court of Appeal,
Third Appellate District

STATE OF CALIFORNIA
California Court of Appeal, Third Appellate District
Case Name: CVCS160001624 | Horn v. Wal-Mart Stores, Inc.
Case Number: C089684
Lower Court Case Number: CVCS160001624

My email address used to e-notify: truefilingadmin@truefiling.com
I notified by email a copy of the following document indicated below:
Title of papers e-notified:
PERSON SERVED

C089684 - Opinion - OPINION FILED -10/1/2020
EMAIL ADDRESS
DATE /TIME
10-01-2020
Conley, James
james.conley@ogletree.com
11:55:42 AM
Service Tracking Id: 45b3965248244b66bae446e28cfcc6c8
10-01-2020
Schubert, Jill
jill.schubert@ogletree.com
11:55:42 AM
Service Tracking Id: 6311 If4e63e54a898cf039bf96a260e0
K. Peterson,
10-01-2020
Court of Appeal, Third Appellate
truefilingadmin@truefiling.com
11:55:42 AM
District
Service Tracking Id: d7cace50545b4ceda8al63380a6904a2
This eNotice was automatically created, submitted and signed on my behalf through my agreements with
TrueFiling and its contents are true to the best of my information, knowledge, and belief.
10-01-2020
Date

Andrea K. Wallin-Rohmann, Clerk
Clerk/Executive Officer

K. Peterson
Deputy Clerk

Court of Appeal, Third Appellate District
Court

iiw-ia

Y

ITT

J'ii ,':i:
1 i-

IN THE

Court of Appeal of fye &tate of California

: .j.

IN AND FOR THE
THIRD APPELLATE DISTRICT
MAILING LIST
Re:

Horn v. Wal-Mart Stores, Inc.
C089684
Sutter County
No. CVCS160001624

Copies of this document have been sent by mail to the parties checked below unless they were
noticed electronically. If a party does not appear on the TrueFiling Servicing Notification and is
not checked below, service was not required.

■I

Joshua Horn
P.O. Box 1388
Penn Valley, CA 95946
James Taylor Conley
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
500 Capitol Mall, Suite 2500
Sacramento, CA 95814
Jill L. Schubert
Ogletree, Deakins, Nash, Smoak & Stewart, P.C.
500 Capitol Mall, Suite 2500
Sacramento, CA 95814
Honorable Perry Parker
Judge of the Sutter County Superior Court
1175 Civic Center Blvd.
Yuba City, CA 95993
(By email)

i

•I
!

■s

SUPERIOR COURT OF CALIFORNIA, COUNTY OF SUTTER
CLERK’S MINUTES:
P
r

Case No.: CVCS16-0001624
Motion: Summary Judgment /
Summary Adjudication
Date: 04/15/2019 9:00 AM

Horn
Vs.
Wafmart Stores, Inc Store #1903
Judicial Officer: Perry Parker
Court Reporter:

Courtroom Clerk: Brenda Johnson

Appearances:

Future Hearing(s):
PARTIES ARE ORDERED TO RETURN ON:

Horn, Joshua
Webber, Kelsey A.

Plaintiff
Attorney for
Defendant
October 07, 2019 9:01 AM Status Conference
Parker, Perry
Courtroom 1

!

Exhibitfs):

proceedings: DEFENDANT WALMART'S MOTION FOR SUMMARY JUDGMENT OR IN THE ALTERNATIVE
,UMMARY ADJUDICATION OF ISSUES
Matter called at 9:01 a.m.
<

Plaintiff present: JOSHUA HORN
Defendant present: KELSEY WEBBER appears for WALMART STORES, INC. STORE 1903
Arguments presented by the plaintiff and defendant.
Plaintiff requests continuance.
Defendant objects to continuance.
Court takes the matter under submission.

APP- iM

P

Effective: May 23, 2016
Revised: October 5,2018

CLERK’S MINUTES

Page 1 of 1

1274

FILED
MAY 0 0 2013
9ft GAUfSQRNtA
¥ ITfefiUTTW

§ypgai
6M

ip/VZQ$7{0wpf

By

H
rr
c/)
CD
CD

SUPERIOR COURT OF CALIFORNIA, COUNTY OF SUTTER

o

3
o
Cl

o
o
.c

3CD

JOSHUA HORN,

Case No. CVCS 16-1624

w
r-*

Plaintiff

CD
O

.RULING ON MOTION FOR
SUMMARY JUDGMENT AND/OR
SUMMARY ADJUDICATION

35

-vs“o

c:

3o

WAL-MART STORES, INC.,

o

Defendant

a.
o
o

O)
co
cn
o

The motion for summary judgment and/or summary adjudication, filed by defendant
Wal-Mart Stores, came on for hearing on April 15, 2019. Plaintiffs oral request for another
continuance was denied.

Plaintiff had already been granted a two and one-half month

continuance of the original hearing date of this motion to complete discovery to oppose this
motion, and there was no good cause shown by plaintiff to grant a second continuance. (See
Minute Order dated November 5, 2018.) The matter was argued and submitted for decision.
Legal Standard
Summary judgment or summary adjudication is proper if there is no triable issue of
material fact and the moving party is entitled to judgment as a matter of law. (Cal. Civ. Proc.
Code § 437c(c), (f)(1), (f)(2)). A defendant moving for summary judgment or summary
adjudication bears the initial burden of setting forth evidence that one or more of the

APP-iS"
1275

/~\

elements of the action or specific cause of action cannot be established or that there is a
complete defense thereto. (Cal. Civ. Proc. Code § 437c(p)(2); Aguilar v. Atlantic Richfield
Co. (2001) 25 Cal. 4th 826, 849). After defendant has produced such evidence, the burden
shifts to plaintiff to show a triable issue of material fact. {Aguilar, supra at 849).
Evidentiary Objections
Plaintiff filed no evidentiary objections to the evidence submitted by defendant in
support of this motion.
Request for Judicial Notice

-i
rr
C/3
CD
CD

o_

On October 9, 2018, defendant filed a Request for Judicial Notice. Plaintiff filed no
objections to the request. The request for judicial notice is granted.

3

Separate Statements of Material Facts

3
O
Q.
O

o
c

Defendant filed a Statement of Undisputed Material Facts on October 9, 2018.

3

Plaintiff filed no responsive separate statement.

C/3

supported by cited evidence and are undisputed. The allegations in the amended complaint

CD
3

The 87 Facts stated by defendant are

1 |

CD
O

35

o
c

are not evidence and, as such, do not create disputes as to any of the 87 Facts stated in the
defendant’s separate statement of facts. College Hosp., Inc. v. Sup.Ct. (Crowell) (1.994) 8
Cal .4th 704, 720.

3-

Fraud

3

o
o

To state this first cause of action for intentional fraud, plaintiff must allege:

3.
O

1. An affirmative misrepresentation the fact was true (CC §§1710, 1572);

o
O)

oo

2.

cn

The representation was false;

o

3. Defendant’s knowledge of falsity or that it was made recklessly without regard for
its truth;
4. An intent to induce reliance;
5. Reasonable reliance by plaintiff; and
6. That reliance resulted in harm to plaintiff. See CACI 1900.
It is undisputed defendant made no false misrepresentation of fact to plaintiff. (Facts
24-33).
It is undisputed plaintiff suffered no resulting damages. (Facts 34 and 80).
The motion for summary adjudication as to the first cause of action for fraud is
granted.

APP-lfe
2
1276

Wrongful Termination in Violation of Public Policy
To state this second cause of action, plaintiff must allege:
1. Plaintiff s employment by defendant;
2. Plaintiffs discharge;
3. The public policy that was violated and which was a substantial motivation reason
for plaintiffs discharge; and
4. The harm caused by that discharge. (CACI2430).
To defeat this cause of action, defendant argues this cause of action depends
H
ZJ
Cfl
CD
CD

a
33

entirely on plaintiffs FEHA claims. Those FEHA claims fail for the reasons set forth in the
discussion of the FEHA claims, alleged in the third, fourth, and fifth causes, below. (See
undisputed Facts 1-87).

O
Q_
O
O

The motion for summary adjudication as to the second cause of action is granted.

c
3

FEHA Disability Discrimination Causes of Action

0)

The third, fourth, and fifth causes of action fail because defendant has set forth

(/)
CD
O

35

o
c

undisputed facts which articulate a legitimate, non-discriminatory, non-retaliatory reason for
the alleged adverse employment action. McDonald Douglas Corp. v. Green (1973) 411 US
792, 802-4. Plaintiff offers no evidence to show that defendant’s reasons were pretextual. Id.

a.
3o

Defendant establishes that the-third, fourth, and fifth- causes of action for disability

R

o

discrimination under FEHA each fail as a matter of law. (See Facts 1-23, 35-61, 66-71, 78-

O

79, and 82-3.) Moreover, these causes of action fail as a matter of law because defendant’s

03

actions were taken for a legitimate business reason. (Facts 1-71-, 78-79). Finally, plaintiff

o
o
cn
o

cannot show defendant’s actions were pretextual. (Facts 1-23, 35-61, 70-71, 81-83).
Defendant also establishes it is undisputed these causes of action are each time-barred. (Facts
62-65).
The motion for summary adjudication as to the third, fourth, and fifth causes of action
is granted.
Intentional Negligence
It is undisputed this sixth cause of action is barred by the Workers Compensation
Exclusivity Act. (See Labor C. §3600; Fact 72). It is also undisputed this cause of action is
time-barred. (Facts 24, 64-65, and 72).

3
1277

The motion for summary adjudication as to the sixth cause of action for fraud is
granted.
Intentional Infliction of Emotional Distress
It is undisputed this seventh cause of action is barred by the Workers Compensation
Exclusivity Act. (See Labor C. §3600; Fact 85). It is also time-barred. (Facts 43, 45-60, 65).
This cause of action is simply an alternative legal theory to hold defendant liable for the same
conduct which forms the basis of plaintiffs claims of disability and racial discrimination. As
a result, it suffers the same fate as the third, fourth, and fifth causes of action in this motion.
—i
rr
w
<D
O

o_

Wangv. TaiJing(2010) 189 CaI.App.4th 1354.
The motion for summary adjudication as to the seventh cause of action is granted.

3

Praver for Punitive Damage

Q.
O

Summary adjudication may also be granted as to a claim for punitive damages even

3
CD
3.
»

though it does not dispose of an entire cause of action. CCP §437c(f)(l); Catalano v. Sup.Ct.

3
o’

o
e

CD
O

3?

u
c

(Camenson) (2000) 82 CA4th 91, 92, 97. A claim for punitive damages requires “clear and
convincing” evidence that defendant has been guilty of “oppression, fraud or malice” in the
commission of a tort. (CC § 3294(a)).
Thus, defendant may seek summary adjudication either that some element of the tort

a.
3

claim cannot be established, defendant’s conduct does not constitute “oppression, malice or

a.

fraud” (as defined by CC § 3294(c)), or plaintiffs proof is not “clear and convincing” (CC §

o
o
G)

3294(a))

o
o

CO

cn
o

Since the Court has granted a summary adjudication as to each of the stated causes of
action, there are no existing causes of action to which a claim for punitive damages can
attach. Therefore, this request by defendant to strike the prayer for punitive damages is
moot. In an abundance of caution, and for that reason only, the motion is granted as to the
punitive damages prayer since it is undisputed that:
1. No officers, directors, or managing agents of defendant committed any improper
conduct toward plaintiff. (Facts 74-77, 86); and
2. Plaintiff cannot prove by clear and convincing evidence that the involved
individuals for defendant acted with fraud, oppression, or malice. (Facts 1-71, 7879,81-83,85, and 87).
The motion as to the prayer for punitive damages is granted.

W?-\%
4
1278

Conclusion
The motion for summary adjudication has been granted for each cause of action in the
amended complaint, which was filed by stipulation, nunc pro tunc to February 21,2018. (See
Minute Order dated November 5, 2018). Therefore, the motion for summary judgment is also
granted.
Counsel for defendant shall prepare an order and judgment consistent with this ruling
and submit each to me for signature after establishing compliance with CRC, Rule 3.1312.
Defendant shall recover reasonable costs according to proof.
-i

The Clerk shall mail a copy of this ruling to plaintiff and counsel for defendant

3"
C/>
CD

forthwith.

o
o

33

Dated: April 8, 2019

O
Q.

O

o
c.

3CD
2.
«

JUDGE OF TH^SUPERIOR COURT

CD

o

A
6

c
3.

3o
o

a
o
o
O)

co

un

o

VW-l"!

*

5
1279

SU^KbMb UUUKI
u

DEC 1 6 2020
i

.'i

Court of Appeal, Third Appellate District - No. C089684 Jorge Navarrete Clerk
V

S265294

Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
JOSHUA HORN, Plaintiff and Appellant,
v.
WAL-MART STORES, INC., Defendant and Respondent.
i

The petition for review is denied.

CANTIL-SAKAUYE
ChiefJustice

